                                                                                Office ofInspector General

                                                                                U.S. Department of Homeland Security
                                                                                Washington, DC 20528




                                                                                 Homeland
                                                                                 Security
                                               SEP 1 3 2011


MEMORANDUM FOR:                      Nancy Ward
                                     Regional Administrator
                                     Federal Emergency ana ement Agency, Region IX

FROM:                                Matt Jadacki l
                                     Assistant Inspec or Gener
                                     Office of Emergency Management Oversight

SUBJECT:                             FEMA Public Assistance Grant Funds Awarded to
                                      City ofPaso Robles, California
                                     FEMA Disaster Number 1505-DR-CA
                                     Public Assistance Identification Number 079-56056-00
                                     Audit Report Number DS-II-12

We audited public assistance (PA) grant funds awarded to the City of Paso Robles, California (City).
Our audit objective was to determine whether the City accounted for and expended Federal
Emergency Management Agency (FEMA) grant funds according to federal regulations and FEMA
guidelines.

The City received a PA award of $6.6 million from the California Emergency Management Agency
(Cal EMA), 1 a FEMA grantee, for debris removal, emergency protective measures, and permanent
repairs to facilities damaged as a result of the San Simeon earthquake of December 22, 2003. The
award provided 75% FEMA funding for 6 large and 14 small projects? The audit covered the period
from December 22,2003, to July 14, 2011. We audited project charges for four large projects (three
of which were closed) and two small projects, totaling $5.8 million, or 88% of the total award (see
Exhibit, Schedule of Audited Projects).

We conducted this performance audit pursuant to the Inspector General Act of1978, as amended,
and according to generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based upon our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based upon our audit objective. We
conducted this audit according to the statutes, regulations, and FEMA policies and guidelines in
effect at the time of the disaster.



1 At the time of the disaster, the grantee's name was the Governor's Office of Emergency Services, which became a part

of Cal EMA on January 1,2009.

2 Federal regulations in effect at the time of the disaster set the large project threshold at $54,100.

We discussed issues related to this audit with FEMA, Cal EMA, and City officials; reviewed
judgmentally selected samples of project costs (generally based on dollar value); and performed
other procedures considered necessary to accomplish our objective. We did not assess the adequacy
of the City’s internal controls applicable to subgrant activities because it was not necessary to
accomplish our audit objective. We did, however, gain an understanding of the City’s method of
accounting for disaster-related costs and its procurement policies and procedures.


                                      RESULTS OF AUDIT

City officials accounted for FEMA grant funds on a project-by-project basis, as required. However,
they did not comply with federal regulations and FEMA guidelines for $1,110,952 in project charges.
Table 1 summarizes our questioned costs.

                            Table 1: Summary of Questioned Costs
    Finding                             Subject                                Questioned Costs
       A                              Procurement                                        $559,788
                          Construction Management, A&E, and
       B                                                                                     456,157
                            Design Services / Procurement
      C                        Scope of Work Eligibility                                     43,125
      D                            Unsupported Costs                                         51,882
    TOTAL                                                                                $1,110,952

Finding A: Procurement

City officials did not comply with federal procurement regulations and FEMA guidelines in the
solicitation and award of contracts totaling $1,015,945 for construction management, architectural
and engineering (A&E), and design services for Projects 194 and 249 (see table 2). As a result, full
and open competition did not occur, and FEMA had no assurance that the City paid reasonable prices.

Federal procurement standards at 44 CFR 13.36 require the City to—

       Perform procurement transactions in a manner providing full and open competition except
       under certain circumstances when procurement by noncompetitive proposal is permitted.
       One allowable circumstance is when there is a public exigency or emergency for the
       requirement that will not permit a delay resulting from competitive solicitation. (44 CFR
       13.36 c)(1) and (d)(4)(i)(B))

       Take all necessary affirmative steps to assure that minority firms, women’s business
       enterprises, and labor surplus area firms are used when possible. (44 CFR 13.36(e)(1))

       Maintain records sufficient to detail the significant history of the procurement, including the
       rationale for the method of procurement, basis for contractor selection, and basis for the
       contract price. (44 CFR 13.36 b)(9))

       Prepare a cost or price analysis in connection with every procurement action, including
       contract modifications. (44 CFR 13.36(f)(1))

                                                  2

           Include mandatory contract provisions detailed in 44 CFR 13.36(i).


In addition, FEMA’s Public Assistance Guide (FEMA 322, October 1999, p. 39) specifies that—
	

           Contracts must be of reasonable cost, generally must be competed, and must comply with
           federal, state, and local procurement standards.

           Noncompetitive proposals should be used only when the award of a contract is not feasible
           under small purchase procedures, sealed bids, or competitive proposals, and one of the
           following circumstances applies: (1) the item is available only from a single source, (2) there
           is an emergency requirement that will not permit a delay, (3) FEMA authorizes
           noncompetitive proposals, or (4) solicitation from a number of sources has been attempted
           and competition is determined to be inadequate.

                      Table 2: Construction Management, A&E, and Design Services Contracts
                                      Took All    Maintained                 Included
           FEMA                                                 Prepared                 Questioned
                      Competitively Necessary      Sufficient               Mandatory
           Project                                             Cost/Price                  Contract
                       Procured?     Affirmative Procurement                 Contract
           Number                                              Analyses?                    Costs
                                        Steps?     Records?                 Provisions?
            194            No             No          No           No           No          $321,062
            249            No             No          No           No           No           694,883
           TOTAL                                                                          $1,015,945

City officials did not solicit competitive bids in awarding contracts for work for Projects 194 and
249. Further, they could not reasonably justify why full and open competition did not occur. For
example, federal regulations allow for flexible—in this case, noncompetitive—contracting under
exigent circumstances. However, exigency was not a factor for this work; the work was permanent
in nature and not emergency-oriented. City officials awarded these contracts noncompetitively to
the same contractor they employed before the disaster. Full and open competition increases the
opportunity for obtaining reasonable pricing from the most qualified contractors and allows the
opportunity for minority firms, women’s business enterprises, and labor surplus area firms to
participate in federally funded work. In addition, full and open competition helps discourage and
prevent favoritism, collusion, fraud, waste, and abuse.

In addition to awarding the contracts without competition, City officials did not follow other
mandatory federal procurement criteria, as shown in table 2. They did not (1) take all necessary
affirmative steps to assure that minority firms, women’s business enterprises, and labor surplus area
firms were used when possible; (2) maintain records including the rationale why the procurement
was not competed; (3) prepare a cost or price analysis for each procurement action; or (4) include the
required provisions within their contracts.

Therefore, we question $1,015,945 in ineligible contract costs associated with Project 194
($321,062) and Project 249 ($694,883). This amount includes $456,157 in costs that we also
question as ineligible in finding B because they were excessive. To avoid duplicate total questioned
costs, the net amount recommended for disallowance for this finding A is $559,788 ($1,015,945 less
$456,157).3 However, if FEMA does not disallow the $456,157 questioned in finding B, it should
3
    The $559,788 recommended for disallowance is comprised of $140,211 (Project 194) and $419,577 (Project 249).
                                                           3

add back that sum to increase the amount recommended for disallowance for finding A to the gross
amount questioned of $1,015,945.

City officials disagreed with this finding, stating that it was not cost effective to compete the
procurement when the contractor was already performing work for the City before the disaster.

Finding B: Construction Management, A&E, and Design Services

City officials charged $456,157 in excessive costs for construction management, A&E, and design
services for Projects 194 and 249. Instead of limiting the charges for these services to 12.4% of
construction costs, which would have been reasonable based on FEMA’s calculations, the City
charged as much as 63%.

Federal rules and FEMA guidelines stipulate that a cost is reasonable if the cost—

         In its nature and amount does not exceed that which would be incurred by a prudent person
         under the circumstances prevailing at the time the decision was made to incur the cost.
         (Office of Management and Budget (OMB) Circular A-87, Revised; Attachment A; section
         C.2)

         Is both fair and equitable for the type of work being performed. (FEMA 322, October 1999,
         p. 34)

         Can be established through the use of historical documentation for similar work and average
         costs for similar work in the area. (FEMA 322, October 1999, p. 34)

Using FEMA guidelines and FEMA officials’ Cost Estimating Format (CEF) calculations, we
determined that the reasonable percentage of construction costs that could be charged for these
services was 12.4%. This percentage was calculated by accounting for historical costs for similar
A&E work (7.4%), as represented in FEMA’s Public Assistance Guide, as well as additional costs
for Project Management Construction (4%) and Project Management Design (1%), as calculated by
the CEF.4

However, for construction management, A&E, and design services, the City charged—

         Twenty-eight percent of construction costs for Project 194, for an excess of $180,851.5

         Sixty-three percent of construction costs for Project 249, for an excess of $275,306.



4
  FEMA’s Cost Estimating Format is a uniform method of estimating costs incurred across the entire spectrum of
eligible work for large projects. It is a forward pricing methodology that applies to all types of infrastructure damages
resulting from a major disaster, and provides an estimate of the total eligible funding at the beginning of the project. The
intent of the CEF is to minimize any potential underestimation of claimed costs eligible for reimbursement.
5
  We did not accept FEMA’s approved costs for Project 194 because FEMA’s CEF-based criteria allowed us to readily
determine that those approved costs were excessive. However, we did accept FEMA’s approved costs on Project 249 as
reasonable because the project was so complex—taking several years to complete and involving various federal
agencies—that calculating reasonable costs would have taken an unreasonable amount of time.
                                                             4

Therefore, we question $456,157 in excessive, ineligible costs for these services. City officials
disagreed with this finding, contending that the complexity of these projects warranted the unusually
high costs for services. However, they stated that they are still in the process of accounting for
eligible costs to support project closeout.

Finding C: Scope of Work Eligibility

City officials charged a total of $43,125 in costs not included in the FEMA-approved scope of work
for Project 224. Although the general scope of work for this project was to restore and retrofit a
library, City officials charged ineligible improvement costs to the project.

Federal requirements stipulate that—

       To be eligible for financial assistance, an item of work must be required as the result of the
       major disaster event. (44 CFR 206.223(a)(1))

       Work performed must derive from the project’s FEMA-approved scope to be eligible for
       federal funding. (FEMA 322, October 1999, pp. 73 and 115–116 and FEMA 323, September
       1999, pp. 21–22, 32, and 52)

We determined that City officials did not comply with these criteria because the $172,500 fixed-
price project management contract for Project 224 included $43,125 in construction management
costs for library improvements, which were not part of the approved scope of work. Therefore, we
question the $43,125 as ineligible. City officials disagreed with this finding, but told us that they
understand and acknowledge our position.

Finding D: Unsupported Costs

City officials charged a total of $51,882 in unsupported costs to Projects 189 and 224. Federal
regulations, rules, and FEMA guidelines require that (1) costs be adequately documented to be
allowable under a federal award (OMB Circular A-87, Revised, Attachment A, section C.1 (j)), and
(2) subgrantees have fiscal controls and accounting procedures that permit the tracing of funds to a
level of expenditure adequate to establish that such funds are not used in violation of applicable
statutes. (44 CFR 13.20(a)(2))

For Project 189, the City charged a total of $28,003 in unsupported costs, as follows:

       $23,640 in contract charges for an engineering company’s ―plan checking‖ services. The
       engineering contractor billed the City for 197 hours at $120 per hour for public consultations.
       However, the contractor’s billings, and timesheets maintained by the City, did not include
       details of the disaster-related work performed.

       $2,984 in force account labor costs. FEMA, at project closeout, approved force account
       labor costs of $67,334. However, City officials could provide support for only $64,350 of
       this amount.



                                                   5

       $1,379 in project costs related to the removal of disaster-related equipment. FEMA, at
       project closeout, approved $3,500 for removal of a trailer used for disaster-related work.
       However, the City’s actual costs incurred for the removal of the trailer were only $2,121.

For Project 224, the City charged a total of $23,879 in unsupported costs, as follows:

       $8,879 for project construction costs. City officials, at project closeout, claimed contracted
       construction costs of $1,902,090, yet could provide support for only $1,893,211.

       $15,000 as a result of an accounting error. City officials inadvertently added an extra ―6‖ to
       their claim, and thus charged $16,660 in disaster-related costs, instead of $1,660.

Therefore, we question $51,882 in unsupported costs for Projects 189 and 224. City officials
generally agreed with this finding.


                                      RECOMMENDATIONS

We recommend that the FEMA Region IX Administrator, in coordination with Cal EMA:

Recommendation #1: Disallow $559,788 (federal share $419,841) in ineligible contract costs
charged to Projects 194 and 249 (finding A). This amount is net of the $456,157 recommended for
disallowance in recommendation #2.

Recommendation #2: Disallow $456,157 (federal share $342,118) in ineligible costs for
construction management, A&E, and design services for Projects 194 and 249 that were
unreasonable (finding B) and noncompliant with federal procurement regulations and FEMA
guidelines (finding A).

Recommendation #3: Disallow $43,125 (federal share $32,344) in ineligible project costs not
included in the FEMA-approved scope of work for Project 224 (finding C).

Recommendation #4: Disallow $51,882 (federal share $38,912) in unsupported costs for Projects
189 and 224 (finding D).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of this audit with City officials during our audit, and included their
comments in this report, as appropriate. We also provided written summaries of our findings and
recommendations in advance to FEMA on June 1, 2011, and to Cal EMA on June 7, 2011. We
discussed these findings and recommendations at exit conferences held with Cal EMA on June 10,
2011, and City officials on July 14, 2011. City officials disagreed with findings A, B, and C, and
generally agreed with finding D. FEMA and Cal EMA officials withheld further comment until after
we issue our final report.

Within 90 days of the date of this memorandum, please provide our office with a written response
that includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target completion
                                                   6

date for each recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation. Until your
response is received and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over
the Department of Homeland Security. To promote transparency, this report will be posted to our
website. Significant contributors to this report were Humberto Melara, Devin Polster, Ravi Anand,
and Bill Stark.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Humberto Melara at (510) 637-1463.


cc:	   Administrator, FEMA
       Audit Liaison, FEMA Region IX
       Audit Liaison, FEMA (Job Code G-11-018)
       Audit Liaison, DHS




                                                 7

                                                                                                            EXHIBIT


                                        Schedule of Audited Projects

                                       City of Paso Robles, California

                           Public Assistance Identification Number 079-56056-00

                                   FEMA Disaster Number 1505-DR-CA


                                                     Costs Questioned
                Project                                   Scope of
    Project                                                           Unsupported                            Total
                Award         Procurement Engineering      Work
    Number                                                               Costs                             (Findings
                Amount         (Finding A) (Finding B)   Eligibility
                                                                      (Finding D)                            (A–D)
                                                        (Finding C)
      846        $62,621
       90         39,882
      189        290,933                                                                      $28,003    $28,003
      194      1,269,847            $140,211          $180,851                                           321,062
      224      1,949,869                                                  $43,125              23,879     67,004
     2497      2,209,677             419,577           275,306                                           694,883
     Total    $5,822,829            $559,788          $456,157            $43,125             $51,882 $1,110,952




6
  Although Project 84 exceeded the large project threshold ($54,100), FEMA approved funding for this small project as
part of the City’s net small project overrun.
7
  At the conclusion of our fieldwork, City officials had completed Project 249 and had charged $1,974,505 to it, but had
not yet finalized the claim for the project.
                                                            8

